FEDERAL PUBLIC DEFENDER
Southern District of Florida
www.fpdsouthflorida.org

Michael Caruso
Federal Public Defender

Location: West Palm Beach

Hector A. Dopico
Chief Assistant
February 23, 2021

Miami:
Helaine B. Batoff
Sowmya Bharathi
R. D'Arsey Houlihan
Supervising Attorneys
Bonnie Phillips-Williams,
Executive Administrator
Stewart G. Abrams
Abigail Becker
Elizabeth Blair
Anshu Budhrani
Katie Carmon
Vanessa Chen
Eric Cohen
Tracy Dreispul
Christian Dunham
Daniel L. Ecarius
Aimee Ferrer
Julie Holt
Sara Kane
Ashley Kay
Lauren Krasnoff
Bunmi Lomax
Ian McDonald
Kathleen Mollison
Kirsten Nelson
Joaquin E. Padilla
Laura Sayler
Kathleen Taylor
Ft. Lauderdale:
Robert N. Berube
Bernardo Lopez,
Supervising Attorneys
Andrew Adler
Huda Ajlani-Macri
Janice Bergmann
Brenda G. Bryn
Timothy M. Day
Robin J. Farnsworth
Margaret Y. Foldes
Juan Michelen
Jan C. Smith
Gail M. Stage
Daryl E. Wilcox

Hon. Scott S. Harris
Clerk of Court
Supreme Court of the United States
Washington, DC 20543
Re:

Duwayne Jones v. United States, Case No. 20-6399
Motion for Delay of Distribution Date Due to COVID-19

Dear Mr. Harris:
I represent Petitioner in the above matter. The petition for a writ of certiorari
in this case was filed on November 17, 2020. The government filed a brief of opposition
on February 22, 2021. Distribution would normally occur on March 11, 2021.
Pursuant to this Court’s Order of March 19, 2020, counsel requests that
distribution in this matter be delayed until April 8, 2021, which would place this matter
on the Court’s conference of April 23, 2021. This request is based on the difficulties
associated with COVID-19.
Petitioner will be filing a reply. However, due to COVID-19, the Federal Public
Defender’s Office for the Southern District of Florida has closed its physical offices, and
its attorneys and staff are working remotely. There are new logistical hurdles related to
the filing and mailing of paper copies.
Counsel for respondent, the United States, does not oppose this request.
Respectfully submitted,
Michael Caruso
Federal Public Defender

West Palm Beach:
Peter Birch,
Supervising Attorney
Robert E. Adler
Lori Barrist
Scott Berry
Caroline McCrae
Kristy Militello

By:

/s/ Peter Birch
Assistant Federal Public Defender

Cc: Counsel for respondent, via e-mail

Fort Pierce:
Panayotta Augustin-Birch
R. Fletcher Peacock

Miami
150 West Flagler Street
Suite 1500
Miami, FL 33130-1555
Tel: (305) 536-6900
Fax: (305) 530-7120

Ft. Lauderdale
One East Broward Boulevard
Suite 1100
Ft. Lauderdale, FL 33301-1842
Tel: (954) 356-7436
Fax: (954) 356-7556

West Palm Beach
450 Australian Avenue South
Suite 500
West Palm Beach, FL 33401-5040
Tel: (561) 833-6288
Fax: (561) 833-0368

Ft. Pierce
109 North 2nd Street
Ft. Pierce, FL 34950
Tel: (772) 489-2123
Fax: (772) 489-3997

